OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/SOUTH AFRICA’S
CASHIERING OPERATIONS
AUDIT REPORT NO. 4-674-07-006-P
May 24, 2007




Pretoria, South Africa
Office of Inspector General

May 24, 2007

MEMORANDUM

TO:                  USAID/South Africa Mission Director, Carleene Dei

FROM:                Acting Regional Inspector General, James Charlifue /s/

SUBJECT:             Audit of USAID/South Africa’s Cashiering Operations
                     (Report No. 4-674-07-006-P)

This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments, in their entirety, as Appendix II.

This report includes three recommendations to strengthen USAID/South Africa’s
cashiering operations. In response to the draft report, the Mission concurred with
Recommendation Nos. 1 and 2 and agreed with Recommendation No. 3. The Mission
has provided corrective action plans to address all three recommendations. Therefore,
we consider that a management decision has been reached on all three
recommendations. Please provide the Office of Audit, Performance, and Compliance
Division (M/CFO/APC) with the necessary documentation demonstrating that a final
decision has been taken on these recommendations.

I want to express my sincere appreciation for the cooperation and courtesy extended to
my staff during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 2

Audit Findings ................................................................................................................. 3

     Monthly Cash Verifications
     Were Not Conducted................................................................................................... 3

     Periodic Reviews of Imprest Fund
     Cash Advance Were Not Conducted .......................................................................... 4

     FSN Emergency Relief Fund Collections
     Were Left in Cashier’s Safe ........................................................................................ 5

Evaluation of Management Comments ......................................................................... 7

Appendix I – Scope and Methodology ......................................................................... 8

Appendix II – Management Comments ......................................................................... 9
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria conducted this audit to determine whether
USAID/South Africa managed its cashiering operations efficiently, economically and in
accordance with Agency policies and procedures.

The audit found that USAID/South Africa generally managed its cashiering operations
efficiently, economically and in accordance with Agency policies and procedures.
However, the Mission could strengthen its cashiering operations by:

    •   Conducting monthly cash verifications (see page 4).

    •   Conducting periodic reviews of the level of the imprest fund cash advance (see
        page 5).

    •   Taking action to prohibit commingling U.S. Government imprest funds with other
        funds (see page 6).

The report includes three recommendations for improving USAID/South Africa’s
cashiering operations (see pages 4 through 6). 1




1
  We intend to provide Mission management with a separate memo detailing some minor matters that came
to our attention during the audit.


                                                                                                    1
BACKGROUND
Mission cashiering operations are governed by policies and procedures issued by the
U.S. Department of the Treasury, the U.S Department of State, and the U.S. Agency for
International Development.

The Mission cashier’s main responsibilities typically are to: (1) maintain an imprest fund
cash advance in amounts prescribed by the State Department’s U.S. Disbursement
Officer in local currency and U.S. Dollars; (2) make cash disbursements from the imprest
fund cash advance against properly authorized documents for local procurement, travel
advances, local currency expense claims, and emergency situations; (3) provide
accommodation exchange transactions for U.S. citizens working for the mission and
institutional contractors; (4) accept payments on behalf of the U.S. Government, such as
payments for bills of collection, and deposit the funds collected; (5) maintain a record of
cash payments made by the subcashier and replenish the subcashier’s petty cash; and,
(6) process sub-vouchers, certified vouchers, collections, local deposits, accommodation
exchange transactions and check requests into the Phoenix financial accounting system.

Generally, the purpose of an imprest fund is to make small payments when the ordering
of checks is not practical and where the best interests of the U.S. Government are
served by making payments in cash. At the same time, cash on hand must be kept to
the minimum needed to meet Mission requirements.

At the time of our audit the Mission was authorized to maintain an imprest fund cash
advance level of $165,000—or local currency equivalent—with a temporary advance of
$100,000 issued in October 2006, for a total of $265,000.

AUDIT OBJECTIVE
The Regional Inspector General/Pretoria audited USAID/South Africa’s Cashiering
Operations to answer the following question:

   •   Did USAID/South Africa manage its cashiering operations efficiently,
       economically and in accordance with Agency policies and procedures?

Appendix I describes the audit’s scope and methodology.




                                                                                         2
AUDIT FINDINGS
Generally, USAID/South Africa managed its cashiering operations              efficiently,
economically and in accordance with Agency policies and procedures.

The Mission has established controls to safeguard the cashier’s office and cashiering
operations. In addition, the Mission has implemented procedures to carry out its
cashiering operations according to the established guidelines. For example the Mission:

   •   Followed appropriate procedures in establishing the imprest fund cash advance.
   •   Formally designated the cashiers—a principal cashier, a subcashier, and an
       alternate cashier.
   •   Provided training and guidance for the cashiers.
   •   Provided physical security for the cashiering process.
   •   Conducted daily reconciliations.

The cashier’s office is in a secured area and access is restricted to authorized
personnel. All cash, checks and other documents associated with the cashier and the
imprest fund reconciliation process are maintained in a safe overnight.

Although the Mission has taken positive steps to implement and manage its cashiering
operations, the following are areas where controls could be strengthened:

   •   The Mission was not conducting the required monthly cash verifications.
   •   Periodic reviews of the imprest fund cash advance were not conducted.
   •   Foreign Service National (FSN) Emergency Relief Fund collections were left in
       the cashier’s safe.

These areas are discussed in detail below.

Monthly Cash Verifications
Were Not Conducted

Summary: The importance of conducting monthly cash verifications is to ensure proper
cash accountability and to safeguard the imprest funds cash advance held by the
cashiers. The Foreign Affairs Handbook governing cashiering operations states that as
part of the basic supervisory responsibility to assure protection of U.S. funds, the
immediate supervisor of the cashier is responsible for making unannounced verifications
of each cashier fund at least once a month. However, USAID/South Africa was not
conducting the required monthly cash verifications. This occurred in part because of an
oversight and weak internal controls. Consequently the Mission did not have the
required assurance that the imprest fund cash advance was safeguarded and properly
accounted for.

Periodic unannounced cash verifications should be conducted to ensure that the Mission
is in compliance with the Department of State’s regulations. The Foreign Affairs
Handbook (FAH) governing cashiering operations requires that unannounced cashier

                                                                                       3
verifications be conducted monthly by a cash verification officer regardless of the
advance amount. 2 All cashier verifications must be completed and signed in the month
conducted and the U.S. Disbursing Officer (USDO) must receive an unannounced cash
count for each of the 12 months in the calendar year. To assure protection of the funds,
the immediate supervisor of the cashier is responsible for making unannounced cash
verifications of each cashier fund at least once a month. According to the FAH, the
immediate supervisor must be an American.

Unannounced cash verifications were not conducted during calendar year 2005. In spite
of identifying the lack of cash counts in USAID/South Africa’s fiscal year 2005 Federal
Manager’s Financial Integrity Act annual certification, only 3 of the required 12 monthly
cash verifications were conducted during the calendar year 2006. Monthly unannounced
cash verifications were not conducted in part because of an oversight and weak internal
controls.

In the absence of the required cash counts, the Mission lacked assurance that the
cashier’s imprest fund records were accurate and prepared in accordance with the
Department of State’s policies and procedures. For example, at the time of our audit
there was a transaction recorded for 200,000 South African rand that was borrowed from
the U.S. Embassy cashier which was erroneously entered into the system as $30,000
dollars instead of South African rand (based on a rough approximation of the
exchange rate at the time of the transaction). This type of error could have been
detected had regular cash counts been conducted.

Cash verifications are an important control to ensure the safekeeping of government
funds, reduce the potential for misuse, and reduce the risk of having unaccounted for
funds. Accordingly, we are making the following recommendation:

      Recommendation No. 1: We recommend that USAID/South Africa establish
      procedures to conduct monthly unannounced cash verifications and maintain
      documentation of the verifications indicating the date reviewed.

Periodic Reviews of Imprest Fund
Cash Advance Were Not Conducted
Summary: A system of good internal control over cashiering operations requires close
oversight and monitoring of cash handling. It includes conducting periodic reviews of the
imprest funds cash advance held by cashiers. Regular reviews help to determine if the
imprest fund cash advance level is commensurate with actual needs and strengthens
cashier accountability over cash. The Foreign Affairs Handbook requires the review of
the amount of each cashier’s advance to determine if it is at a minimum level to meet the
needs of the Mission. However, due to internal control weaknesses, periodic cash
reviews of the imprest fund cash advance were not being conducted. Because of the
lack of periodic reviews of the cash advance, the Mission was not assured that Agency
funds were appropriately managed and that the fund level was appropriate to meet
Mission needs.



2
    Foreign Affairs Handbook Volume 4, Handbook 3, Section H-397.1-2 (4 FAH-3 H-397.1-2)
                                                                                           4
A system of good internal control over cashiering operations requires close oversight
and monitoring of cash handling. It includes conducting periodic reviews of the imprest
funds cash advance held by cashiers. Regular reviews help to determine if the imprest
fund level is commensurate with actual needs and strengthens cashier accountability
over cash. The FAH requires the review of the amount of each cashier’s advance to
determine if it is at a minimum level to meet the needs of the Mission. 3 It further states
that the cashier’s accountability is authorized as the maximum U.S. dollar amount but
the actual accountable amount fluctuates based on the level of cashier's activity. This
FAH states that the adequacy of the cashier’s advance must be reviewed at least
annually by the Financial Management Officer, in this case the Mission Controller. The
review must be documented, signed by the cashier and the Financial Management
Officer, and filed in the cashier’s file, with a copy sent to the servicing U.S. Disbursing
Officer.

Nevertheless, the Mission was not conducting the required periodic reviews of the
imprest fund cash advance and there were no definite plans to conduct imprest fund
reviews in the future. Mission officials were not aware of when the last review of the
imprest fund had been conducted. These conditions arose due to weak internal control
over the cash advance level. Without conducting periodic reviews of the imprest fund,
the Mission is not assured that Agency funds are appropriately managed and that the
current fund level is appropriate for the needs of the Mission. To strengthen the
monitoring process for conducting imprest fund reviews, we are making the following
recommendation:

      Recommendation No. 2: We recommend that USAID/South Africa establish
      procedures to conduct periodic reviews of the amount of the imprest fund cash
      advance and maintain records of the completed reviews.

FSN Emergency Relief Fund Collections
Were Left in Cashier’s Safe

Summary: Cash contributions that were collected for the Foreign Service National (FSN)
Emergency Relief Fund were left in the cashier’s safe. The Foreign Affairs Handbook
prohibits the intermingling of Government funds with any other funds. This occurred
because, after collection of the funds, Mission officials were not aware of the Agency’s
instructions on processing the contributions. As a result, the funds remained in the
Cashier’s safe and the Mission faces the risk of potential loss or misuse of these funds.

The Foreign Affairs Handbook prohibits the intermingling of U.S. Government funds with
any other funds. 4 Nevertheless, cash contributions that the Mission collected for the
FSN Emergency Relief Fund were left in the cashier’s safe.

Monies collected for the FSN Emergency Relief Fund were being maintained in the
cashier’s safe from December 2006. These funds totaled 4,808 South African rand
(approximately $687). This occurred because, after collection of the funds, Mission
officials were not aware of the Agency’s guidance, which was provided in a USAID
general notice regarding the replenishment of the FSN Emergency Relief Funds

3
    4 FAH-3 H-393.4-2e
4
    4 FAH-3 H-393.3-4c
                                                                                         5
collected to assist FSNs globally. The USAID general notice stated that FSN cash
contributions in dollars, local currency, cash or check should be taken to the Embassy
cashier, who would prepare an OF-158 general receipt for the contributions. Because
Mission officials were unaware of this guidance, the funds collected by USAID/South
Africa remained in the Mission cashier’s safe together with the cash advance funds,
instead of being deposited with the Embassy cashier.

Although the FSN Emergency Relief Funds were kept in the cashier’s safe for
safekeeping, they are not part of the Mission’s imprest fund accountability and are not
included in the cashier’s daily reconciliation worksheets. As a result, the Mission faces
the risk of potential loss, misuse or diversion of the FSN Emergency Relief Funds
without any indication being raised in the USAID accounting system. Additionally, the
commingling of these funds in the same safe as the cash advance funds increases the
risk of loss or misuse of the cash advance funds. Therefore, we are making the
following recommendation:

Recommendation No. 3: We recommend that USAID/South Africa take action to prohibit
the commingling of U.S. Government imprest funds with other funds.




                                                                                       6
EVALUATION OF
MANAGEMENT COMMENTS
The Mission’s comments and our evaluation of those comments are summarized below.

In response to Recommendation No. 1, concerning, establishing procedures to conduct
monthly unannounced cash verification and maintaining documentation of the
verifications, USAID/South Africa concurred with the recommendation. The Mission
reported that it was in the process of implementing controls to ensure that cash counts
are conducted and documented. Based on this, we consider that a management
decision has been reached for Recommendation No. 1.

In response to Recommendation No. 2, concerning establishing procedures to conduct
periodic reviews of the amount of the imprest fund cash advance and maintaining
records of the completed reviews, USAID/South Africa concurred with the
recommendation. The Mission proposed conducting periodic semi-annual reviews of the
amount of the imprest fund cash advance. Based on this, we consider that a
management decision has been reached for Recommendation No. 2.

In response to Recommendation No. 3, concerning establishing procedures to prevent
other funds from being in the same secure container designated for the U.S.
Government imprest funds, USAID/South Africa accepted the finding and has indicated
that it would take action to prevent commingling Government funds with any other funds.
As a result, we consider that management decision has been reached on
Recommendation No. 3.




                                                                                     7
                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria performed this audit in accordance with
generally accepted government auditing standards. The objective of the audit was to
determine if the Mission managed its cashiering operations efficiently, economically and
in accordance with Agency policies and procedures.

In planning and performing this audit, we obtained an understanding and assessed the
Mission’s internal control related to cashiering operations that were in place at the time
of our audit. Internal controls included the establishment of the imprest fund;
designation of cashiers; establishment of cashier authorities; safeguarding of imprest
fund assets; separation of duties; and unannounced cash counts of the imprest fund. In
order to determine the extent of internal control weaknesses noted during the audit,
such as lack of monthly cash counts and lack of analysis of the cash advance level,
we reviewed the Mission’s controls in these areas during calendar years 2005 and 2006
and also reviewed the fiscal years 2005 and 2006 Federal Manager’s Financial Integrity
Act annual certification for any related management control weaknesses.

Our audit covered the $165,000 imprest fund and $100,000 temporary advance for a
total of $265,000 maintained by the primary cashier and alternate cashiers. Audit field
work was conducted at USAID/South Africa Mission facilities in Pretoria and Silverton,
South Africa, from January 12, 2007 to March 7, 2007.

Methodology
To answer the audit objective, we obtained an understanding of the cashiering
requirements as described in the Department of Treasury’s Manual of Procedures and
Instructions for Cashiers, the Department of State’s Foreign Affairs Handbook, and
USAID published guidance.

We assessed the Mission’s internal control over cashiering operations by interviewing
appropriate Mission officials and staff. We reviewed the physical security of the
cashier’s office for compliance with requirements specified in the guidance. In order to
test internal control, we judgmentally selected transactions to verify that all payments in
excess of $500 were approved by the Controller, that disbursements were made for
authorized purposes and that signed receipts were obtained for all payments. We
reviewed the accommodations exchange transaction documents for December 2006 to
determine if they were processed and transmitted to Charleston, South Carolina, within
the month.

Finally, we conducted a non-scheduled cash count with the principal cashier at the
Mission in Pretoria and with the subcashier at GSO warehouse in Silverton. We counted
the cash held by each person accountable and verified that it was accurate and tied to
the amounts on the system-generated reconciliation worksheet report.




                                                                                         8
                                                                            APPENDIX II



MANAGEMENT COMMENTS


                                             UNITED STATES GOVERNMENT
                                             ACTION M E M O R A N D U M


DATE             :            May10, 2007

TO              :             Nathan Lokos, Regional Inspector General/Pretoria

FROM            :             Carlene Dei, Mission Director /s/


                              Management Comments – Audit of USAID/South Africa’s
SUBJECT         :
                              Cashiering Operations (Report No. 4-674-07-XXX-P


The Mission has reviewed the subject audit report. The following is our management
response and comments:

Recommendation #1:        We recommend that USAID/South Africa establish
procedures to conduct monthly unannounced cash verification and maintain
documentation of the verifications indicating the date reviewed.

Recommendation #2:      We recommend that USAID/South Africa establish
procedures to conduct periodic reviews of the amount of the Imprest Fund Cash
Advance maintain records of the completed reviews.

Recommendation #3:        We recommend that USAID/South Africa establish
procedures to prevent other funds from being in the same secure container
designated for the U.S. Government Imprest Fund.

Management Response:

USAID/ South Africa concurs with recommendation #1. The Controller has given
instructions that periodic cash counts be conducted at least monthly. Since the issuance of
the draft audit report, one cash count has been conducted. Position Descriptions of
employees eligible to be designated Cash Verification Officers are being amended to
include Cash Count as part of regular duties. Additionally, Cashier Operation Procedures
                                                                                     9
                                                                        APPENDIX II

are being reviewed to ensure that regular cash counts are conducted and documented. The
cash verification report is now listed among the mandatory monthly FM reports to be
submitted to the Controller.

USAID/South Africa concurs with recommendation #2. In accordance with the
Department of Treasury’s Manual of Procedures and Instructions for Cashier, and the
Foreign Affairs Handbook, Periodic Cashier reviews will be conducted semi-annually
and documented. The review will be based on actual usage of cash, types and frequency
of payments to determine needs and level of cash required. Shortly after the audit, a
cashier review was conducted and adjustment was made to the level of cash advance
accordingly. The Cashier Operation Procedure Manual is being revised to include the
semi-annual Cashier Review as a requirement.

Recommendation #3 – USAID/South Africa accepts the finding and will take actions to
prevent reoccurrence. According to the Foreign Affairs Handbook – Volume 4 FAH -3
H393.4-3-e, Cashiers are prohibited from safeguarding and/or disbursing funds or
personal checks of employees, contractors, official visitors, or anyone else, unless
received in authorized transactions such as accommodation exchange, reimbursement,
repayment of advances. USAID/South Africa does not intend to establish procedures for
transactions not authorized under the Cashier Operating Procedure. USAID/South Africa
will, however, take actions to reinforce the procedure, already in place, prohibiting
commingling of US Government Imprest funds with other funds and will ensure strict
adherence through regular monthly Cash Verifications. Consequently, USAID/South
Africa requests that recommendation #3 be modified to call for implementation of the
established Cashier Operating Procedures.

Please consider the above as USAID/South Africa’s Management Decisions with regards
to the recommendations.




                                                                                10
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
